BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Respondents' Brief in Opposition in 20-477,
Shanika Day and Harvey Morgan v. Franklin Wooten
and Randall Denny, was sent via Two Day Service to
the U.S. Supreme Court, and 3 copies were sent via
Two Day Service and e-mail to the following parties
listed below, this 4th day of January, 2021:
Nathaniel Lee
Lee, Cossell and Crowley LLP
151 North Delaware Street, Suite 1500
Indianapolis, IN 46204
(317) 631-5151
nlee@nleelaw.com
Counsel for Petitioners
Donald E. Morgan
Counsel of Record
Taft Stettinius & Hollister LLP
One Indiana Square
Suite 3500
Indianapolis, Indiana 46204
(317) 713-4432
dmorgan@taftlaw.com
Adam S. Willfond
Office of Corporation Counsel
200 East Washington Street
Suite 1601
Indianapolis, Indiana 46204
(317) 327-4055
adam.willfond@indy.gov

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergaflagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Philip D. Williamson
Taft Stettinius & Hollister LLP
425 Walnut Street
Suite 1800
Cincinnati, Ohio 45202-3957
(513) 357-9417
pwilliamson@taftlaw.com
Counsel for Respondents

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on January 4, 2021.

CJ2>

Donna J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

Notary Public, S1ale of Ohio
My Commllllon Expires
February 14, 2023 _

